TN
COCKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-546

THE PEOPLE OF THE STATE OF MICHIGAN,
Petitioner,
v.
LARICCA SEMINTA MATHEWS,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 4894 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of January, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska
RENEE J. GOSS
: My Comm. Exp. September 5, 2023

Oudrawh. Che

 

Kepue. Q. Bose

Notary Public

 

Affiant 40356
